SYSTEM ACCESS BY CONTRACTORS
WITHOUT SECURITY CLEARANCES




           Report Number 09-07
       Date Issued: January 26, 2009




               Prepared by the
         Office of Inspector General
     U. S. Small Business Administration
           U.S. Small Business Administration
           Office Inspector General                                 Memorandum
    To:    Christine Liu                                                                  Date:   January 26, 2009
           Chief Information Officer
           /s/ original signed
  From:    Debra S. Ritt
           Assistant Inspector General for Auditing

Subject:   System Access By Contractors Without Security Clearances
           Report No. 09-07

           This report supplements our evaluation of the Federal Information Security
           Management Act (FISMA) implementation for Fiscal Year 2008. The Office of
           Inspector General (OIG) is required to annually assess SBA’s compliance with
           FISMA in accordance with specific reporting instructions issued by the Office of
           Management and Budget (OMB).1 During the course of our FY 2008 FISMA
           review, we determined that SBA did not consistently ensure that contractors were
           properly vetted prior to granting them access to sensitive SBA systems and data.
           This vulnerability was not consistently reported and tracked in SBA’s Plan of
           Action and Milestones (POA&M).

           In order to assess security controls over contractor access, we reviewed SBA
           access requirements outlined in Standard Operating Procedure (SOP) 90 47 2. We
           also requested the names of contractors with access to all hosted applications2 on
           the following 10 systems:

           [FOIA ex. 2




           1
               Memorandum 08-21, FY 2008 Reporting Instructions for the Federal Information Security Management Act and
               Agency Privacy Management.

           2
               These included applications in both production and test environments.
]

We compared contractor names to Agency and OIG records and interviewed the
appropriate Agency representatives to determine whether background
investigations and clearances had been completed for contractor staff. To
determine whether SBA appropriately identified and corrected vulnerabilities
involving unauthorized contractor access, we reviewed OMB Memorandum M-
04-25 requirements and the Agency’s POA&M quarterly reports for FY 2008.
Our review was conducted in accordance with the Government Auditing Standards
as prescribed by the Comptroller General of the United States.

BACKGROUND

OMB Circular A-130 requires Federal agencies to screen individuals applying for
access to government data and systems based on the level of risk presented by
their access. SOP 90 47 2 classifies all SBA data as sensitive and requires all
contractor personnel to undergo background investigations. In addition, contractor
personnel occupying positions designated as critical-sensitive cannot be given
access to sensitive data until an appropriate security clearance has been granted.
SBA requires that SBA Form 1228, Computer Access Clearance/Security, be used
to request all network account access for new contractor employees.

Currently, the Contracting Officer’s Technical Representatives (COTRs) assigned
to each program office are responsible for identifying all contractor personnel who
require access to SBA systems and records. 3 The COTR submits system access
requests to the OIG Security Office, which performs the preliminary background
checks. After the OIG completes the background check, the signed access request
is sent to the appropriate staff for processing. The contractor may then be granted
temporary system access pending the completion of the full clearance process.




3
    SBA Procedural Notice 9000-1684, SBA Form 1228 Process.


                                                      2
RESULTS

SBA Granted System Access to Contractors Who Lacked the Required
Background Investigations and Security Clearances

Contractor employees were granted access to sensitive SBA systems and data
without evidence of completed background investigations and security clearances,
as required by SOP 90 47 2. Of the 10 systems reviewed, we identified 6 that
were accessed by contractors, who did not have the required background
investigations and clearances:

      • [FOIA ex. 2] – Five of seven contractors were found to occupy sensitive
        positions, such as Systems Administrator, without background
        investigations and subsequent clearances. In some cases, the contractors
        had access to both production and test data.

      • [FOIA ex. 2] – One of four contractors lacked evidence of a background
        investigation and clearance.

      • [FOIA ex. 2] – All 33 contractors lacked a background investigation and
        clearance.

      • [FOIA ex. 2] – Two of nine contractors did not have evidence of a
        background investigation and clearance.

      • [FOIA ex. 2] – All 18 contractors lacked a background investigation and
        clearance.

      • [FOIA ex. 2] – One of three contractors did not have an SBA
        background investigation and clearance.

Although SBA procedures require a background investigation and SBA
authorization for all contractors accessing SBA data, not all COTRs were aware of
this requirement, and instead, relied on vendors to clear their own employees for
access. For example, the COTRs for [FOIA ex. 2] and the [FOIA ex. 2] were
unaware of the SBA background investigation and clearance requirements until
the OIG made inquiries. As a result, critical and sensitive SBA systems and data
(including Personally Identifiable Information) were at risk of unauthorized access
and subsequent waste, loss, and misuse.

Only four of the six systems we identified were reported as having contractor
access-related vulnerabilities on SBA’s POA&M. Access vulnerabilities


                                        3
associated with [FOIA ex. 2] and [FOIA ex. 2] were not reported. The POA&M
also identified an additional five systems as having vulnerabilities associated with
contractor access, which, with the exception of [FOIA ex. 2], we did not review.
These systems included the:

         •    [FOIA ex. 2];
         •    [FOIA ex. 2]4;
         •    [FOIA ex. 2];
         •    [FOIA ex. 2]; and
         •    [FOIA ex. 2]

SBA Did Not Consistently Report Vulnerabilities Involving Unauthorized
Contractor Access

OMB Memorandum M-04-25 requires agencies to prepare a POA&M for all
programs and systems where an IT security vulnerability has been found and to
brief OMB. Program officials are further required to update the Agency’s Chief
Information Officer (CIO) on the status of their progress in addressing the
vulnerabilities by reporting this information in the POA&M at least quarterly so
that the CIO can monitor agency-wide remediation efforts. Additional Federal
guidance requires system owners to perform timely corrective actions to address
the vulnerabilities.5

Despite these requirements, system owners did not consistently identify and/or
address identified vulnerabilities associated with contractor access to sensitive
SBA systems and data. A review of quarterly POA&Ms for FY 2008 disclosed
that unauthorized contractor access to the 11 systems on the POA&M were not
consistently reported as vulnerabilities and that the vulnerabilities were not
consistently prioritized and remediated. A summary of how these vulnerabilities
were reported is shown in the following table.




4
  Our review of [FOIA ex. 2] did not disclose any employees with background investigation/clearance issues. However,
   the quarterly POA&Ms reported a vulnerability.
5
  National Institute of Standards and Technology (NIST) Special Publication 800-37, Guide for the Security
   Certification and Accreditation of Federal Information Systems.


                                                        4
    Table 1. Summary of POA&M Vulnerabilities Involving Unauthorized Contractor
                                    Access
                                              Disclosure and Rating of Vulnerability
                        POA&M 1st             POA&M 2nd           POA&M 3rd              POA&M 4th
System6                 Quarter 2008          Quarter 2008        Quarter 2008           Quarter 2008
[FOIA ex. 2]            Not Reported          Not Reported        Not Reported           Low

[FOIA ex. 2]            Not Reported          Not Reported           High                High

[FOIA ex. 2]            Low                   Low                    Not Reported        Not Reported

[FOIA ex. 2]            Not Reported          Not Reported           Not Reported        Not Reported

[FOIA ex. 2]            Not Reported          Not Reported           Not Reported        Not Reported

[FOIA ex. 2]            Reported, but not     Reported, but not      Reported, but not   Reported, but not
                        ranked                ranked                 ranked              ranked

[FOIA ex. 2]            Medium                Medium                 Medium              Medium

[FOIA ex. 2]            Medium                Medium                 Medium              Medium

[FOIA ex. 2]            High                  High                   Vulnerability       Vulnerability
                                                                     Remediated          Remediated
[FOIA ex. 2]            Not Reported          Not Reported           Medium              Medium

[FOIA ex. 2]            Not Reported          Not Reported           High                High

Source: OCIO quarterly POA&M reports for FY 2008.

For example, SBA did not report a vulnerability related to unauthorized contractor
access to [FOIA ex. 2] in the first two quarters of 2008, but subsequently reported
it as a high-risk vulnerability in the last two quarters of 2008. Further,
vulnerabilities related to contractor access were sometimes rated as a high-risk,
and other times as medium- or low-risk.

Inconsistencies in reporting vulnerabilities associated with contractor access were
due to several factors. First, contractors performing Certification and
Accreditation reviews and security self-assessments of the various systems did not
consistently identify improper contractor access as a vulnerability. Secondly,
because OCIO did not provide guidance on how such vulnerabilities should be
rated, ratings varied. Finally, in preparing the POA&M, OCIO staff did not
identify inconsistencies in how the vulnerabilities were being reported and rated,
and allowed vulnerabilities to be dropped without appropriate documentation.




6
    Includes general support systems, such as [FOIA ex. 2] and the [FOIA ex. 2].


                                                             5
RECOMMENDATIONS

We recommend the Chief Information Officer:

   1. Require system owners to confirm that all contractor personnel with access
      to sensitive systems and data have background investigations and
      clearances commensurate with SBA policy.

   2. Immediately suspend system access for any contractors who do not comply
      with SBA background investigation and security clearance policies.

   3. Work with the Office of Management and Administration to notify COTRs
      of SBA’s system access requirements related to contractor personnel.

   4. Require that the C&A reviews and the security self-assessments determine
      whether contractor employees have the required background investigations
      and clearances for system access.

   5. Develop guidance on how contractor access vulnerabilities should be rated
      and reported in the quarterly and annual POA&M reports.

   6. Require documentation justifying removal of previously reported
      vulnerabilities from the POA&M.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On December 16, 2008, we provided a draft of this report to SBA for comment,
and on January 23, 2009, we received written comments from the Chief
Information Officer which are contained in their entirety in Appendix I.

While the OCIO agreed to take action on the recommendations, we found that the
proposed actions to be taken in response to Recommendations 1, 2, 4, 5 and 6
were not sufficient to fully address the related findings. We consider the OCIO
response to Recommendation 3 to be sufficient to mediate the related finding.

We recognize the actions taken by the OCIO staff to address issues that the audit
team brought to their attention and look forward to resolution of all findings and
implementation of all recommendations.




                                         6
ACTIONS REQUIRED

Because your comments did not fully address Recommendations 1, 2, 4, 5 and 6, we
request that you provide a written response by February 20, 2009, providing
proposed actions and target dates for implementing the recommendations.

We appreciate the courtesies and cooperation of the OCIO during this audit. If
you have any questions concerning this report, please call me at (202) 205-[FOIA
ex. 2] or Jeffrey Brindle, Director, Information Technology & Financial
Management Group, at (202) 205-[FOIA ex. 2].




                                        7
